ES, IG-98-029, Outsourcing of Desktop Computers
OUTSOURCING OF DESKTOP COMPUTERS
IG-98-029
Executive Summary
Introduction
In December 1996, NASA decided to outsource its desktop computers, local
area networks, and user support services.  NASA based its decision, in
significant part, on the results of its outsourcing study referred to as
the Business Case analysis.  On June 17, 1998, NASA announced the
competitive selection of seven vendors who were later awarded
indefinite-delivery, indefinite-quantity contracts.  NASA Centers may now
select vendors to provide desktop services without further competition but
are required to provide fair consideration to the vendors under the
established delivery order selection process.
(1)
Objective
The overall objective of the audit was to determine the adequacy of NASA's
outsourcing study.
(2)  Specifically, our objective was to determine whether
NASA had:
based its outsourcing analysis on current, accurate, complete, and relevant cost data;
used appropriate and consistent methodology in analyzing the various options; and
adequately considered alternatives to outsourcing.
Appendix A contains details on the scope and methodology.
Results of Audit
NASA has not ensured the adequacy or consistency of cost data to be used to
place outsourcing delivery orders. After completing the Business Case
analysis, which supported outsourcing, NASA updated the available cost data
on outsourcing desktop computers, through successive iterations, to support
each phase of the competitive procurement process.  NASA used the updated
data to assess the Agency-wide benefits of outsourcing.  However, NASA has
not issued guidance on preparing reliable cost estimates in support of
delivery order placement.  Without consistently prepared and reliable
estimates of the costs of the Government activities to be outsourced, the
Centers may be unable to make well-informed decisions on the type and extent
of outsourcing services they should acquire, particularly with regard to
services other than general-purpose computing (for example, intra-Center
communications). Also, Centers may be unable to reliably compare the costs
of doing business with the eligible vendors or to determine the total amount
of savings actually achieved through outsourcing.
Recommendation
We recommended that the NASA Chief Information Officer (CIO) require
Centers to develop Government cost estimates for use in determining the
type and extent of outsourcing services to be acquired.  We also recommended
that the CIO issue detailed guidance for the Centers to use in developing
their cost estimates.
Management's Response and Evaluation of the Response
In lieu of requiring each Center to develop cost estimates, the ODIN Program
Office is developing Center-specific cost baselines with the full support and
participation of the Centers.  We consider this action responsive to the
recommendation.
FOOTNOTES
1.  The Office of Space Flight is planning to award
delivery orders to a common vendor for the work at multiple NASA Centers.
2.  We have issued two additional products that resulted
from this audit.  See Appendix C for additional information.